      Department of Homeland Security





            Future Directions of FEMA’s 

       Temporary Housing Assistance Program 





OIG-12-20                                  December 2011

                                                                 Office ofinspector General

                                                                {J.S. Department of Homeland Security
                                                                 Washington, DC 20528




                                                                 Homeland
                                                                 Security
                                     DEC 2. 8 2011

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses ofthe Alternative Housing Pilot
Program and the Disaster Housing Pilot Project. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those      0 contributed to the preparation of this report.




                                        Acting Assistant Inspector General
                                        Office of Emergency Management Oversight




                 Future Directions ofFEMA's Temporary Housing Assistance Program
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


     The Alabama City of Bayou La Batre Project ...............................................................6 


     The Mississippi Park Model and Mississippi Cottage Project.....................................10 


     The Mississippi Green Mobile (Eco Cottage) Projects ...............................................15 


     The Louisiana Katrina Cottages and Carpet Cottages Project .....................................19 


     The Texas Heston Group Project.................................................................................24 


     The Disaster Housing Pilot Project..............................................................................28 


Conclusion .........................................................................................................................30


Recommendations..............................................................................................................33


Management Comments and OIG Analysis ......................................................................33 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................35 

     Appendix B:           Management Comments to the Draft Report .......................................37 

     Appendix C:           Major Contributors to this Report........................................................42 

     Appendix D:           Report Distribution ..............................................................................43 


Abbreviations
DHS                   Department of Homeland Security
FEMA                  Federal Emergency Management Agency
GAO                   Government Accountability Office
HUD                   Department of Housing and Urban Development
JHSG                  Joint Housing Solutions Group
LHFA                  Louisiana Housing Finance Agency
LRA                   Louisiana Recovery Agency
MEMA                  Mississippi Emergency Management Agency
OIG                   Office of Inspector General
TDHCA                 Texas Department of Housing and Community Affairs
UFAS                  Uniform Federal Accessibility Standards



                        Future Directions of FEMA’s Temporary Housing Assistance Program
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  After Hurricane Katrina, Congress required the Federal Emergency
                  Management Agency to determine the most efficient and cost-
                  effective means of providing post-disaster housing. Two programs
                  designed to explore future directions for disaster housing are the
                  $400 million Alternative Housing Pilot Program and the $1.4
                  million Disaster Housing Pilot Project. Both are providing insight
                  for future disaster housing but demonstrate that significant
                  timeliness and costliness issues remain to be addressed.

                  The Alternative Housing Pilot Program made grants to Alabama,
                  Mississippi, Louisiana, and Texas to develop alternative forms of
                  disaster housing while housing hurricane survivors. The grants
                  resulted in more than 3,700 units of interim housing; more than
                  1,600 will remain as permanent housing units. However,
                  completion of the projects was delayed, costs were significantly
                  higher than planned, and community opposition significantly
                  impacted many planned projects. The $16.5 million Texas project
                  encountered the most problems and was terminated by state
                  officials after the developer had received more than $5.5 million
                  and had completed only six residences. The state was left with a
                  warehouse of component parts that could potentially be assembled
                  into 42 additional units. Most of the problems in developing
                  innovative units and providing housing stemmed from flaws in the
                  initial project concept, not in project management. States were
                  given only 35 days to create and submit project designs. This
                  forced states to rely on existing commercial designs, was not
                  sufficient for estimating project costs, and did not allow time to
                  test community acceptance of the units. Reaching agreement on
                  project details with agency officials also delayed project efforts.

                  The Disaster Housing Pilot Project tested and evaluated 10
                  different types of housing units and provided more cost-effective
                  insight than the Alternative Housing Pilot Program into possible
                  future housing options. However, all of the units tested thus far by
                  both programs have been more expensive than the trailers the
                  agency has traditionally used.




            Future Directions of FEMA’s Temporary Housing Assistance Program

                                         Page 1
Background
                         The Alternative Housing Pilot Program Mandate

                         The Post-Katrina Emergency Reform Act of 2006 (Post-Katrina
                         Act) (P.L. 109-295) contained a requirement that a National
                         Disaster Housing Strategy be developed, coordinated, and
                         maintained under the Office of the Administrator, Federal
                         Emergency Management Agency (FEMA). According to the Post-
                         Katrina Act, among the requirements for the National Disaster
                         Housing Strategy were that it “outline the most efficient and cost-
                         effective Federal programs that will best meet the short-term and
                         long-term housing needs of individuals and households affected by
                         major disaster” and “describe plans for the operation of clusters of
                         housing provided to individuals and households.”

                         The intent of Congress to improve disaster housing strategy was
                         further demonstrated in the Emergency Supplemental
                         Appropriations Act for Defense, the Global War on Terror, and
                         Hurricane Recovery, 2006 (P.L. 109-234). Section 2403 of that
                         act authorized funds for “costs sufficient for alternative housing
                         pilot programs in the areas hardest hit by Hurricane Katrina and
                         other hurricanes of the 2005 season.” The Senate Committee on
                         Appropriations stated in a press release that the $400 million in
                         appropriated funding was to fund a pilot program that would both
                         develop “alternative sources of emergency housing” and serve as
                         an “intermediate term housing solution for the Gulf Coast.”1

                         To carry out the intent of Congress, FEMA officials developed an
                         Alternative Housing Pilot Program (Pilot Program) grant
                         competition to “identify, develop, and evaluate alternatives to and
                         alternative forms of disaster housing.” The competition was
                         limited to state-designated agencies of Florida, Alabama,
                         Mississippi, Louisiana, and Texas. Through the competitive grant
                         process, FEMA officials sought to identify new alternatives for
                         housing disaster victims. By restricting the competition to the five
                         gulf coast states, FEMA officials sought to comply with the
                         congressional intent that those areas hardest hit by the 2005
                         hurricanes should receive the housing developed under these
                         grants.




1
 U.S. Senate Committee on Appropriations Press Release, “Senate, House Conferees Approve Final
Supplemental Spending Bill,” dated June 8, 2006.


                  Future Directions of FEMA’s Temporary Housing Assistance Program

                                               Page 2
      The Alternative Housing Pilot Program Evaluation Process

      When FEMA issued the Pilot Program Guidance and Application
      Kit on September 15, 2006, the designated agencies of the five
      states were given 35 days to develop as many project proposals as
      they wished to submit by the October 20, 2006, deadline. Twenty-
      nine project proposals were received. Some of the individual
      proposals envisioned developing more than one type of innovative
      housing, but most focused on a single type of unit.

      An 11-member evaluation board, consisting of 8 federal
      government employees and 3 outside experts, reviewed each of the
      proposed projects to determine the extent to which each proposal
      met the following five factors:

      1.	 The manner and extent to which the proposed alternative
          housing solution improves upon the conditions characteristic of
          existing temporary housing and improves long-term recovery;
      2.	 The extent to which the option can provide ready-for­
          occupancy housing (obtained, transported, installed, repaired,
          constructed, etc.) within timeframes and in quantities sufficient
          to meet disaster-related needs under a range of scenarios,
          including sudden-onset catastrophic disasters;
      3.	 Life cycle costs, including the costs to acquire, transport,
          install/construct/repair, and maintain each unit during the
          period it is occupied by disaster victims;
      4.	 The capacity of the proposed alternative approach to be used in
          and adapted to a variety of site conditions and locations; and
      5.	 The extent to which local officials and community
          organizations support the pilot program in the community in
          which it will occur.

      The Alternative Housing Pilot Program Awards

      FEMA officials reviewed the board’s evaluations and prepared a
      decision paper for a Department of Homeland Security (DHS)
      senior manager who, serving as the Pilot Program primary
      selecting official, decided on the projects to be funded and the
      amount of funding for each project. The Pilot Program primary
      selecting official chose five projects:

      1.	 Alabama’s City of Bayou La Batre project would be funded up
          to $15,667,293 (85% of a requested $18,432,110). Under full
          funding of this proposal, 194 modular homes would have been
          constructed using cement fiber materials.


Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 3
      2.	 Mississippi’s Park Model and Mississippi Cottage project
          would be funded up to $275,427,730 (68.9% of a requested
          $400,000,000.) Under full funding of this proposal, 7,261
          enhanced park model trailer units and 1,933 modular cottages
          would have been constructed.
      3.	 Mississippi’s Green Mobile project would be funded up to
          $5,890,882 (85% of a requested $6,930,450). Under full
          funding of this proposal, 100 green mobile housing units would
          have been constructed of structural insulated panels.
      4.	 Louisiana’s Katrina Cottages and Carpet Cottages project
          would be funded for $74,542,370 (85% of a requested
          $87,696,906). Under full funding of this proposal, 475 housing
          units consisting of a mix of single-family cottages and
          multifamily carpet cottages would have been constructed.
      5.	 Texas’ Heston Group USA project would be funded for up to
          $16,471,725 (85% of a requested $19,378,500). Under full
          funding of this proposal, 250 prefabricated, panelized housing
          units would have been constructed.

      FEMA officials notified the states of these awards in December
      2006 and informed the public of the grants on December 22.
      FEMA officials then proceeded to work out grant terms and
      agreements with officials of the states before awarding the funds.

      The Disaster Housing Pilot Project

      Concurrently, in September 2006, FEMA launched the Joint
      Housing Solutions Group (JHSG) initiative as a multiyear effort to
      develop a systematic process to evaluate and rate various disaster
      housing options, identify viable alternatives to FEMA travel
      trailers and manufactured homes, and recommend improvements
      for conducting disaster housing operations. Among the primary
      goals of the group were identifying and assessing potential
      alternative housing units, pilot testing the most promising
      alternative housing units, and coordinating with the Pilot Program.

      The group staff identified 10 potential types of disaster housing
      units for pilot testing. Under a Disaster Housing Pilot Project,
      these units were erected on the grounds of FEMA’s National
      Emergency Training Center in Emmittsburg, Maryland. Students
      attending the Training Center programs occupied and rated the
      units.




Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 4
Results of Audit
     The Pilot Program effort provided more than 3,700 housing units to the gulf coast
     states. More than 1,600 units will serve as permanent housing, primarily for
     lower income residents. However, owing to the collapse of one state’s project
     and cost overruns and completion delays with other projects, the Pilot Program
     has not been cost-effective. The Pilot Program and Disaster Housing Pilot Project
     have both demonstrated options for disaster housing that are better and safer, but
     initially more costly, than FEMA’s traditional options. It remains to be seen
     whether either program will result in significant improvements in the Temporary
     Housing Assistance Program, although the Disaster Housing Pilot Project can
     provide a cost-effective way of analyzing options for improvements. Some of the
     Pilot Program projects encountered fewer problems than others, and two or three
     of the five projects could be considered to have met their goals. But all
     encountered extensive problems that reduced their effectiveness in providing
     housing and increased their costs. The projects experienced problems with some
     contractors and per unit costs were generally higher than expected, so fewer units
     were constructed. Most of the projects fell significantly behind schedule and
     community opposition reduced options for placing units, especially the more
     innovative units and group site units. FEMA- and state-level program managers
     responded to problems in a reasonable and responsible manner, but problems
     continued to arise.

     It took FEMA and the states between 3 and 9 months to complete the grant
     agreements. Once the grant agreements were in place, the states had problems
     reaching agreements with some contractors. Once contracts were in place,
     finding communities that would still accept the Pilot Program units was fraught
     with constant problems and rejections that caused more delay. The environmental
     clearances also took longer than expected and sometimes brought projects to a
     standstill. Eventually, completion of the Pilot Program projects required between
     3 and 5 years from the date of the grant announcements—completion times that
     would not meet FEMA’s need for future short- and intermediate-term post-
     disaster housing. By the time the units were completed, many of the hurricane
     victims for whom the units were intended had found other housing, and many of
     the units that are being completed in the later parts of the projects have had to be
     made available to families other than hurricane victims. In some cases, the states
     have not yet found occupants for completed units. The more innovative units that
     constituted more of a break from past practice, such as the Carpet Cottages, the
     Mississippi Green Mobile units, and the Heston Group USA units, presented the
     most problems in developing and also had the hardest time achieving community
     acceptance.




              Future Directions of FEMA’s Temporary Housing Assistance Program

                                           Page 5
     Table 1 summarizes the material presented in this report.

                 Table 1. Alternative Housing Pilot Program Funding Timeliness and
                 Number of Units Constructed
 Pilot Program        Proposal     # of Units     Amount         %       #of Units      %      Delays   Cost per
    Projects                       Proposed       Funded       Funded      Built       Built             Unit
Alabama City of     $18,432,110       194       $15,667,293     85%         100        52%      No      $156,672
Bayou La Batre
Mississippi         $400,000,000   7,261 Park   $275,427,730    69%     1,450 Park     20%      No      $90,000
Park Model and                      1,933                                 1,625        84%
Cottages                           Cottages                              Cottages

Mississippi         $6,930,450        100       $5,890,882      85%     45 new units   45%      Yes     $90,000
Green Mobile/
Eco Cottages
Louisiana           $87,696,906       475       $74,542,370     85%         480        101%     Yes     $155,000
Katrina Cottages
and Carpet
Cottages
Texas Heston        $19,378,500       250       $16,471,725     85%       6 and 42     2%       Yes     N/A
Group                                                                   unassembled
                                                                            units



     The Alabama City of Bayou La Batre Project
                 The Bayou La Batre project, providing 100 homes at two development
                 sites, was the first of the Pilot Program projects completed. However,
                 completion took nearly 3 years. The biggest delay was the process of
                 working with FEMA officials to finalize the grant agreements. Because of
                 the limited time to perform cost estimates prior to the grant proposal
                 submittal and subsequent increases in project costs, only about 100 of the
                 proposed units were completed. However, these units will become long-
                 term public housing that should serve the community for many years, and
                 space is available at the development site for more homes should funds
                 become available.

                          Project Proposal and Award

                          The City of Bayou La Batre project proposal offered to construct
                          194 homes in a coastal community hard hit by Hurricane Katrina
                          for $18,432,110. The homes would be factory-built modular units
                          constructed using cement fiber walls and able to withstand winds
                          up to 150 mph. The units would be available in one-bedroom-
                          plus-den and two-, three-, and four-bedroom single-story
                          configurations ranging in size from 820 to 1,360 square feet.
                          The one-bedroom-plus-den units would be single-wide units that
                          could be detached and transported elsewhere if needed. The other
                          types were double-wide units composed of two major components



                   Future Directions of FEMA’s Temporary Housing Assistance Program

                                                  Page 6
      transported separately from the factory in Florida and joined
      together at the housing site.

      In the Pilot Program awards announcement on December 22, 2006,
      the Bayou La Batre project would be funded for up to $15,667,293,
      85% of the requested $18,432,110. The state of Alabama
      proposed, and FEMA concurred, that the City of Bayou La Batre
      would be the grantee and program administrator for the Alabama
      Pilot Program project. The actual grant award was made on July
      27, 2007. The 7 months between the announcement and the award
      were spent establishing the details of the award, including the
      management and oversight arrangements. Under the terms of the
      agreement articles, the period of performance was April 30, 2007,
      through April 29, 2011.

      Project Progress, Problems Encountered, and Results

      The City of Bayou La Batre and its consulting firm served as the
      developers of the project, contracting out the construction of the
      units to Palm Harbor, the Florida firm whose modular homes had
      been featured in the Alabama Pilot Program grant proposal. The
      city contracted with construction firms for site infrastructure,
      roads, playing fields, and other improvements and components.
      City officials said Community Development Block Grant funds
      were used for some infrastructure costs.

      All of the units were to be located in two neighboring group sites
      on either side of a street in the suburbs. The sites were in one of the
      more desirable neighborhoods (and very near the city’s mayor’s
      home) and near a recently constructed school. Perhaps most
      important, the sites were in a highlands area, more than 82 feet
      above sea level. Some problems were encountered in closing on
      the sites, including community resistance from some neighbors
      who had concerns about how the development would appear and
      its effect on the community.




Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 7
     City of Bayou La Batre Project Cottage exterior and interior




           Part of the City of Bayou La Batre development




      The state highway department required the development to fund
      necessary highway safety improvements, including construction of
      a turnoff from the highway and a change in one of the access roads
      to provide better sight lines when approaching the highway. These
      improvements cost nearly $2 million.

      Project officials soon determined that the grant funds would not be
      sufficient to construct the anticipated number of units. They said
      this was partly due to the reduced level of funding that FEMA had
      provided, but also due to the tight FEMA deadlines for the grant
      proposals, which had not allowed adequate time to fully cost out
      the proposed projects. For example, the ramps to make the
      Uniform Federal Accessibility Standards (UFAS) units accessible
      for wheelchair and walker users cost $13,577 per UFAS unit.
      Even after making some design changes, such as replacing the
      proposed metal roofs with composite shingle roofs, project
      officials determined that the budget would be sufficient to
      construct only 100 units: 6 four-bedroom units (1,360 sq. ft.); 19
      three-bedroom units (1,155 sq. ft.); and 75 two-bedroom units
      (including the ten 820-square-foot one-bedroom-plus-den single-
      wide deployable units).

      A construction contract was signed in June 2008, and production at
      the factory was quickly initiated. Delays in delivery occurred when

Future Directions of FEMA’s Temporary Housing Assistance Program

                               Page 8
      the Florida Department of Transportation held up some units that
      exceeded highway size limits. With help from FEMA personnel,
      project officials were able to get permission for all of the units to be
      transported to the site. At site, delays in site preparation were
      caused by extended periods of bad weather, construction companies
      closing during the holidays, and environmental review approvals.
      Project officials said that FEMA officials were helpful, but turnover
      among FEMA staff led to conflicting advice for the project.

      The first units were completed in November 2008, and 30 units
      were complete by the end of the year. All of the units were ready
      for occupancy by July 2009. The project staff had already
      mounted a campaign to notify all eligible families of the
      availability of the homes. Current residents of FEMA housing had
      priority, followed by families that had received FEMA assistance
      and still needed permanent housing. Within these groups, Bayou
      La Batre residents had priority. Selected families paid rent
      proportionate to their income and had to pass a background check.
      At the time of our site visit, the Alabama project was in the process
      of being converted to rental public housing under a City of Bayou
      La Batre Public Housing Authority that was being developed.
      Rents will be charged based on ability to pay, and the project will
      be managed in accordance with U.S. Department of Housing and
      Urban Development (HUD) guidelines.

      Project officials said that the completed units cost about $88,000
      each before land acquisition and infrastructure costs. Land
      acquisition costs were only $648,201, but infrastructure costs were
      around $3.7 million, funded with project funds and nearly $2
      million in Community Development Block Grant funds. The total
      costs, including furnishings, were reported as $180,000 per unit.
      Space is available in the developments for more public housing
      units should additional funds become available. By the time the
      units are converted to a Public Housing Authority project, the
      average unit will have served as interim housing for disaster
      survivors for about 2 years.

      Project officials said the city and the residents are pleased with the
      housing and consider the project a success. They have produced
      safe houses in a very livable development with an attractive
      appearance. Some of the units had moisture problems, but these
      were corrected by installing vapor barriers and dehumidifiers and
      by routing air-conditioner unit drains farther away from the houses.
      As the houses were constructed, community opposition to the



Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 9
             project diminished; people saw how the modular homes and the
             development fit in, and the development operated successfully.

The Mississippi Park Model and Mississippi Cottage Project
     The $275.4 million Mississippi Park Model and Mississippi Cottage grant
     resulted in the construction of 3,075 housing units, most of which were
     used to house victims of hurricanes Katrina and Rita. More than 1,000 of
     these units have been converted to permanent homes and as many as 2,000
     units could eventually become permanent homes, most for lower income
     residents. The major problem encountered by the project was gaining
     acceptance from communities for the units, especially as permanent
     housing. The delays in reaching agreement with FEMA on the details of
     the grant and disbursing funds allowed community resistance to increase.
     Nevertheless, most of the units were in place as temporary housing by
     December 2009.

             Project Proposal and Award

             The Mississippi proposal offered to construct 7,261 Park Model
             housing units and 1,933 Mississippi Cottages for $400 million.
             The Park Models proposed, at 462 square feet per unit, were
             similar in size to FEMA park model trailers but had several
             enhancements, including improved durability, ability to withstand
             winds of up to 150 mph, 8-foot ceilings, attic storage space,
             ENERGY STAR heating, ventilation and air-conditioning systems,
             no roof penetrations, rot/mold/moisture-resistant materials, a front
             porch, and a style reflecting the Mississippi gulf coast architectural
             heritage.




                                   A Mississippi Park Model

             The Mississippi Cottages were modular housing units available in
             two-bedroom (812 sq. ft.) and three-bedroom (924 sq. ft.) models.
             The units were designed to be more durable than the manufactured


       Future Directions of FEMA’s Temporary Housing Assistance Program

                                   Page 10
      housing, widely known as mobile homes, used by FEMA after past
      disasters, and their inherent structural rigidity would allow them to
      be removed from their carriages and placed on foundations as
      permanent residences. Like the Mississippi Park Models, they
      were designed to fit in with the architectural traditions of the
      Mississippi gulf coast.




                               Mississippi Cottages

      In the Pilot Program awards announcement on December 22, 2006,
      the Mississippi Park Model and Cottage project award was funded
      for up to $275,427,730, or 68.9% of the requested $400 million.

      Project Progress, Problems Encountered, and Results

      State officials had hoped to begin the project on January 1, 2007,
      but the Mississippi Emergency Management Agency (MEMA)
      needed to produce a management plan and coordinate articles of
      agreement with FEMA before the project could proceed. During
      these discussions, the number of units projected to be constructed
      was reduced to 4,000, and it was agreed that more of the costlier
      two- and three-bedroom units and fewer of the Park Models were
      needed. (This decision was later validated by the fact that the Park
      Models were less accepted by both potential occupants and the
      communities than were the larger units.) Notice to proceed with
      the project was issued on April 4, 2007, with a grant period of
      performance from April 1, 2007, through March 31, 2011.

      Construction of the Park Models and Mississippi Cottages was
      contracted out using competitive bidding to seven factories, each
      of which had quality assurance/quality control employees of the
      state’s contracted engineering firm on site. The competitive
      bidding process took more than 2 months. The first of the
      completed Park Model units had been shipped to the transition
      site/staging areas in the Mississippi gulf coast, passed inspection,
      and were occupied by June 2007. The first Mississippi Cottages


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 11
      were delivered and accepted in August 2007. The last of the units
      were received in December 2009. Ultimately, MEMA accepted
      3,075 units from the six manufacturers: 1,450 Park Models, 600
      two-bedroom Mississippi Cottages, 600 two-bedroom UFAS-
      compliant Mississippi Cottages, 325 three-bedroom Mississippi
      Cottages, and 100 three-bedroom UFAS-compliant Mississippi
      Cottages.




                         Kitchen of a Mississippi Cottage

      MEMA provided the units to eligible individuals, with the size of
      the unit based on the number of people to be housed. The
      individuals had to be residents of the three Mississippi coastal
      counties (later expanded to six counties) who had lost their
      residences to Hurricane Katrina and were living in FEMA trailers
      or mobile homes. No group sites were established. The units were
      set up on land to which the potential occupants could show title or
      on rented sites, including trailer parks. MEMA covered the setup
      costs and provided the units rent-free; however, the occupants had
      to pay their own utilities and had to pay their own space rent if in a
      trailer park.

      MEMA paid the manufacturers around $34,000 to $36,000 each for
      Park Model units, $46,000 to $51,000 for the two-bedroom units,
      and $48,000 to $52,000 for the three-bedroom units. The cost of
      installing a temporary unit at a site averaged $10,897 per unit.

      Two subsequent disasters affected the course of the program. On
      September 1, 2008, Hurricane Gustav struck Mississippi with high
      winds and flooding. MEMA officials told us that the Park Models
      and Mississippi Cottages proved very resistant to high winds and
      suffered little wind damage, but significant numbers of units in
      lower elevation areas were severely damaged by floodwaters.
      MEMA had insurance on all of the units, and those that were

Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 12
      damaged were either repaired or “totaled” and taken by the
      insurance company. MEMA was reimbursed at what its officials
      consider a fair discounted value (85% of the original cost of the
      unit) for the 255 units damaged beyond repair, a total of
      $8,508,307. In keeping with FEMA requirements, this money was
      put in the MEMA Pilot Program operating fund. In March 2010,
      after severe tornados struck central Mississippi, FEMA authorized
      MEMA to use some of the MEMA Pilot Program units to house
      disaster victims. Within 25 days, MEMA was able to relocate
      unoccupied units for tornado survivors whose residences had been
      destroyed.

      By May 2009, MEMA had started the transition from state-
      provided interim housing to occupant-owned permanent housing.
      MEMA sent out a “permanent housing survey” to determine which
      occupants were interested in purchasing their units. Occupants
      who met qualifications, including having the unit as their primary
      residence and having a secure owned or leased site for the unit
      with authorization from the city or county, were able to purchase
      the unit for a cost that varied with ability to pay. MEMA sold
      more than 1,000 units for between $351 and $13,096 per unit.
      Under local building codes, making the units into permanent
      residences generally required placing them on permanent
      foundations. MEMA paid the costs of permanent placement of
      most of the units when these costs were above the financial ability
      of occupants. The total costs of converting the units to permanent
      housing were just over $16 million, or just over $15,000 per
      residence.

      By the time of our March 22, 2011, site visit, 1,068 MEMA Pilot
      Program units had been sold to occupants, and 242 units were still
      in the process of enabling the occupants to acquire the unit on a
      permanent basis. MEMA also had transferred 451 units to
      nonprofit organizations and government entities and anticipated
      donating an additional 143 units. Approximately 206 units were
      still awaiting disposition decisions.

      MEMA disposed of 710 used units that were no longer needed for
      the program through public auction in 2010: 483 Park Models,
      190 two-bedroom units, and 37 three-bedroom units. Park Models
      sold for around $7,000 to $11,000, two-bedroom units for around
      $18,000 to $19,000, and three-bedroom units for around $18,000
      to $22,000. As in the case of the insurance proceeds, funds from
      auctions were used to continue program operations. MEMA



Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 13
      officials told us that any remaining units whose occupants cannot
      or will not purchase them will probably also be sold at auction.

      MEMA officials are generally satisfied with the Pilot Program.
      The program produced 3,075 units of housing, of which all but a
      few arrived in time to be used as transitional housing. Although it
      was planned to convert only 500 units to permanent housing, the
      program is now expected to result in around 2,000 permanent
      housing units.

      MEMA officials are also generally satisfied with the quality of the
      units. Although there were some problems with manufacturers, the
      quality assurance/quality control and inspection processes worked
      to overcome them. The biggest consistent problem was one type
      of air conditioner used in Park Model units that often failed to
      drain properly, resulting in mold and other water problems. There
      were also some problems with moisture from leaks near doors and
      condensation from dryer vents weakening floors. In general, the
      units were very satisfactory as interim housing that met both HUD
      and the International Residential Code standards. Once the
      program was fully under way, manufacturers were able to produce
      each cottage unit in 4 to 5 weeks, and at the peak of the program
      more than 400 units were being installed in a month. The need to
      transfer units to central Mississippi after the tornados struck
      showed that the units could be quickly dispatched and installed at a
      new disaster site. Even though the Park Models fill the need for a
      unit that is flexible in small spaces, the two- and three-bedroom
      units were the most popular models.

      The biggest problem the MEMA Pilot Program faced was in
      gaining acceptance and support from local jurisdictions, even
      though the state administration, including the Governor’s office,
      was very supportive of the program. MEMA staff had worked
      with local officials from the beginning to gain acceptance of the
      Pilot Program units, but they continued to meet resistance. As
      time passed from the disaster event, jurisdictions become more
      resistant to small cottages as permanent housing. The Park Models
      encountered the most rejection, but it was also an ongoing struggle
      to get local governments to accept cottages as permanent
      residences. Some of the later community resistance to permanent
      units was caused by the fact that people had been led to believe
      that these units would be temporary, and they were opposed to the
      program’s subsequent change to focus on more cost-effective
      permanent placement for the cottages.



Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 14
             The biggest project delay was at the beginning, in getting the
             agreements with FEMA in place. This delayed the disbursement
             of FEMA funds and set back project initiation. These delays and
             the subsequent passage of time resulted in a reduced pool of
             potential applicants.

             In general, MEMA officials said they had a very good rapport with
             FEMA and considered the FEMA Pilot Program office to be
             cooperative and supportive. In addition to interacting with FEMA
             Pilot Program headquarters staff, MEMA officials were in
             continuing contact with a FEMA Pilot Program coordinator who
             was stationed in Mississippi from April 2007 to September 2008.

             The fact that the eventual owners of permanent units were unable
             to pay for the site work required for the conversion to permanent
             housing increased the costs of the project. Much of this expense
             was unanticipated. Likewise, it was assumed that units could be
             donated to nonprofit organizations with no additional expenses.
             However, the nonprofit organizations needed financial help with
             placing the units at sites.

             In all, the Mississippi Park Model and Cottage Pilot Program
             project provided interim housing and support services for about
             2,900 families or individuals from as early as 2007 to as late as
             2011.

The Mississippi Green Mobile (Eco Cottage) Projects
     The Mississippi Green Mobile Projects, later renamed the Eco Cottages,
     encountered extensive delays and had resulted in only one completed
     housing unit as of our site visits in early March 2011. By the time the
     units are completed in late 2011, they will be too late to be used by the
     intended beneficiaries, the families who lost their homes to hurricanes
     Katrina and Rita. Nearly a year’s delay was encountered in finalizing the
     grant agreement with FEMA. Delays were also encountered in developing
     the detailed project architect and engineer designs for the green mobile
     units. When the design was completed, it was generally rejected by
     community leaders and was, therefore, deemed unsuitable for their region
     by Mississippi officials and was canceled. The Eco Cottages, a
     replacement project being built in cooperation with two nonprofits, will
     result in far fewer units than the original proposal and will not be
     completed until late in 2011.




       Future Directions of FEMA’s Temporary Housing Assistance Program

                                   Page 15
      Project Proposal and Award

      The Mississippi Green Mobile grant proposal offered to construct
      100 green mobile housing units for $6,930,450. The goal of the
      project was to demonstrate the merits of a cutting-edge approach
      that provides an improved emergency housing alternative,
      emphasizing innovative site design features, green building
      technologies, reduced energy consumption, and an open interior
      design that could be adapted to varied family needs. The units
      would be constructed of structural integrated panels and
      transported to site on a wheeled undercarriage, with “clip-on” pods
      and porches subsequently added. The FEMA evaluation panel
      rated this proposal the highest of all the competing proposals.

      In the Pilot Program awards announcement on December 22, 2006,
      the Mississippi Green Mobile project was funded for up to
      $5,890,882, or 85% of the requested funds. The grant award was
      not issued until nearly 11 months later, on November 20, 2007,
      with a period of performance of November 1, 2007, through
      October 30, 2011.

      Project Progress, Problems Encountered, and Results

      The project encountered further delays after the grant award was
      made. A February 2, 2009, review of the MEMA Pilot Program
      effort stated that the housing units were “currently in the design
      phase,” and a January 10, 2010, MEMA overview of the Pilot
      Program said that the program was on hold “with the purpose of
      using the Eco Cottages as part of a long term housing solution
      within certain group sites such as a retirement community.”

      MEMA officials contracted the design of the Green Mobile units to
      a firm that experienced some delays in delivering the agreed-upon
      design work. MEMA officials considered that the final product
      met applicable standards, and the firm was paid $186,422.
      However, MEMA officials did not consider the design to be viable
      for the gulf coast communities, as it was too modern and
      unconventional to fit in with the traditional gulf coast architecture.
      In addition, the local jurisdictions were proving very resistant to
      any plans that involved group sites. MEMA officials decided to
      drop this project and search for partners who could develop units
      that would still be ecologically sound units: the Eco Cottages.

      On May 1, 2009, MEMA announced a competition for subgrants to
      government entities or nonprofit organizations that would tailor-fit


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 16
      Eco Cottages into village or subdivision settings within
      Mississippi’s six southernmost counties. Its intention was to award
      two subgrants, each for 20 or more cottages and each meeting
      standards for environmental sensitivity and energy efficiency, and
      to provide long-term housing for disaster victims.

      MEMA officials selected Mercy Housing and Human Development,
      Inc., of Biloxi, Mississippi (Mercy Housing) and Habitat for
      Humanity Bay-Waveland Area, Inc., of Bay St. Louis, Mississippi,
      (Habitat for Humanity Bay-Waveland) to develop and administer
      the Eco Cottage projects. However, getting both of the nonprofits
      through the federal grant compliance process and helping them
      find suitable sites and obtain acceptance from local jurisdictions
      led to additional delays.

      On February 17, 2010, a cooperative agreement was signed
      between MEMA and Mercy Housing, which would receive a
      subgrant of $2,152,500 plus a transfer from MEMA of 16 one-
      bedroom Mississippi Park Model Cottages and 14 two-bedroom
      Mississippi Cottages in “as is” condition. These units had been
      constructed under Mississippi’s other Pilot Program grant and had
      already been used as interim housing. Mercy Housing agreed to
      construct 45 Eco cottages and place them, along with the 30
      transferred units it would restore, on two sites in Pass Christian and
      Ocean Springs, Mississippi. The period of performance extends
      through March 31, 2012. The completed units are to be managed
      by Mercy Housing as affordable rental housing for lower income
      households, since by this point FEMA had acknowledged that
      MEMA had already provided housing for disaster survivors.

      On March 12, 2010, a cooperative agreement was signed between
      MEMA and Habitat for Humanity Bay-Waveland under which
      Habitat for Humanity Bay-Waveland would receive a subgrant of
      $1,722,000 to construct 20 Eco Cottage units in Bay St. Louis.
      The completed units would be sold at appropriate prices to lower
      income individuals and households. As in the case of the Mercy
      Housing units, the individuals to be housed no longer needed to be
      disaster survivors.

      In March 2011, the Mercy Housing site in Ocean Springs did not
      have any structures under construction. However, the site in Pass
      Christian had Eco Cottages in various stages of construction. The
      cottages were being constructed by professionals using offsite­
      prepared wood panel sections. Mercy Housing officials plan to
      complete all construction by October 2011.


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 17
       Mercy Housing Pass Christian, Mississippi, Eco Cottages under construction

      The Habitat for Humanity Bay-Waveland site in Bay St. Louis had
      some nearly completed Eco Cottage structures and others being
      built by Habitat for Humanity professionals assisted by large
      numbers of volunteers. The cottages were being constructed using
      traditional methods with some preconstructed panels. Habitat for
      Humanity Bay-Waveland officials plan to complete the units using
      this summer’s volunteers.




      Habitat for Humanity Bay St. Louis, Mississippi, Eco Cottage under construction

      MEMA officials agreed that the Green Mobile/Eco Cottage project
      encountered extensive delays. They tried to make the original
      concept work for longer than they should have once it was
      apparent it was unlikely to succeed. They conceded that the
      project may not have received management focus since they were
      occupied in managing the larger Park Model and Mississippi


Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 18
            Cottage Grant. Consequently, in addition to not providing the
            leading-edge Green Mobile units that had been planned and
            funded, this project will not be completed in time to provide
            housing for victims of the 2005 hurricanes. It will, however,
            provide homes for families in need at a cost of around $90,000 per
            unit.

The Louisiana Katrina Cottages and Carpet Cottages Project
     Construction of most of Louisiana’s 480 Pilot Program cottages is
     complete. More than 8 months passed before grant agreements with
     FEMA were completed. The state then took 10 months to move the
     project from one state agency, which had started preliminary planning, to
     a second state agency to manage the project. The project also encountered
     community opposition, except for one development that was located on
     state land for the use of state employees. Only the state-owned site was
     willing to accept Carpet Cottages. Many of the Louisiana Katrina Cottages
     are being completed too late to serve the needs of the families displaced by
     hurricanes Katrina and Rita. However, the project is now fully operational,
     and all of the units should be completed by the end of 2011.

            Project Proposal and Award

            The Louisiana Katrina Cottages and Carpet Cottages grant proposal
            offered to construct 475 units of housing, a mix of single-family
            Louisiana Katrina Cottages and multifamily Carpet Cottages, for
            $87,696,906. The Louisiana Katrina Cottages were factory-built
            homes with a porch and a choice of one-, two-, or three-bedroom
            layouts ranging from 874 to 1,112 square feet in size in five floor
            plans and a variety of designs that reflected local architectural
            traditions. The units featured wood frames and pier-and-beam
            foundations, and could be expanded. The Carpet Cottages were
            innovative one-story multifamily units that were attached and
            offered a selection of one-, two-, and four-bedroom units in a single
            site. Cypress Cottage Partners of Baton Rouge developed the
            project proposal.




      Future Directions of FEMA’s Temporary Housing Assistance Program

                                  Page 19
                        Louisiana Katrina Cottage

      In the awards announcement on December 22, 2006, the Louisiana
      Katrina Cottages and Carpet Cottages proposal was funded for up
      to $74,542,370, or 85% of the requested $87,696,906. The
      Louisiana Housing Finance Agency (LHFA) was the program
      administrator for the Louisiana Pilot Program. The grant
      agreement was not made until September 7, 2007. More than 8
      months were spent establishing the details of the articles of
      agreement, including management and oversight arrangements,
      and amending the state’s original application package. The period
      of performance was established from September 17, 2007, through
      September 16, 2011.

      Project Progress, Problems Encountered, and Results

      One of the topics of discussions with FEMA officials was the
      Louisiana officials’ intention to locate some of the Pilot Program
      housing units at the Louisiana State Military Department’s Jackson
      Barracks. Jackson Barracks is the historic headquarters of the
      Louisiana National Guard and was severely damaged by Hurricane
      Katrina and the resultant flooding. The state wanted to construct
      Pilot Program housing on base at Jackson Barracks for the
      exclusive use of state employees: National Guard troops and State
      Military Department civilian employees. On November 2, 2007,
      LHFA officials wrote to FEMA requesting that the selection of
      residents be modified to meet the concerns of the State Military
      Department. They argued that, “There is a compelling need to
      locate [State Military Department] employees, members, and their
      respective families at Jackson Barracks so they may carry out their
      essential functions, including, but not limited to, first responder
      and Homeland Security functions with which they are charged.”
      They further argued that, “Because of the Homeland Security


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 20
      requirements, emergency response mission, and sensitive
      operations equipment and infrastructure, having persons from
      outside the organization within and on the Jackson Barracks’
      premises is inconsistent with the effective and safe use of the site.”
      FEMA officials subsequently approved the state’s request for
      exclusive use by state employees of the Jackson Barracks housing
      units.

      For the next 5 months, LHFA managed the project, including
      signing, on October 12, 2007, a developer services contract with
      Cypress Realty Partners, LLC, to manage the project. The LHFA
      officials made the award without competition since Cypress had
      designed the original proposal that was submitted and selected for
      funding. Budgets were developed, some work orders were issued,
      and some environmental clearances were under way. Then on
      February 29, 2008, the Governor of Louisiana directed the
      Louisiana Recovery Agency (LRA) to assume responsibility for
      administering the $74.5 million program as part of the ongoing
      efforts to streamline the state’s recovery from hurricanes Katrina
      and Rita. FEMA officials said that was the state’s prerogative and
      played no role in this decision.

      It took 5 months for the LRA to complete the program transfer
      from LHFA and to sign a new contract with the same developer.
      The state auditor had recommended that the contract for
      developing the units be competed, but LRA officials argued it was
      not required and not practical since Cypress Partners was the
      creator of the project. LRA officials said they renegotiated the
      contract to reduce the developers’ fees and create benchmarks for
      contractor performance. One of the partners backed out of the
      developer consortium at this time in response, the LRA believes, to
      the reduced fees and profits.

      In addition to the Jackson Barracks units, Louisiana Pilot Program
      housing was constructed in various areas of New Orleans on group
      sites and as fill-in units on scattered sites in the Westwego area of
      Jefferson Parish, and in Baton Rouge and Lake Charles. Only the
      Jackson Barracks site received any Carpet Cottages. The LRA had
      tried to arrange for Carpet Cottages to be built at other sites but
      encountered too much community opposition. Eventually, only the
      Jackson Barracks site, where the state had full decision-making
      authority, allowed for the denser occupancy Carpet Cottages.




Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 21
      Carpet Cottages at Jackson Barracks—exterior and entrance to a unit




                        Kitchen of Louisiana Carpet Cottage

      Construction of the Jackson Barracks units was delayed when the
      site development work needed for the first location selected proved
      too costly and another area of the barracks had to be selected.
      Nevertheless, construction of the single-family cottages at Jackson
      Barracks started in February 2009 and was completed in December
      2009. Construction of the Carpet Cottages started in August 2009
      and was completed in April 2010.




           Jackson Barracks Louisiana Katrina Cottage Pilot Program housing units




Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 22
      In Baton Rouge, 42 single-family cottages were placed at a group
      site within an existing subdivision as part of a joint venture
      between the state and a foundation. Construction started in
      February 2009 and was completed in January 2010.

      In Lake Charles, a group site and city-acquired scattered sites have
      been developed in conjunction with two nonprofit partner
      organizations. Construction of the 34 single-family cottages at the
      group site started in April 2009 and was completed in December
      2009. Construction at the 35 scattered sites started in November
      2009 and was completed in February 2011. Not all of these units
      had occupants at the time of our site visit in March 2011.




                  Lake Charles Louisiana Katrina Cottages group site

      The Westwego group site in Jefferson Parish features 27 single-
      family units built on land purchased from an adjacent church. The
      units are being rented as a senior community to persons over 55
      years of age.

      The Housing Authority of New Orleans has a group site in Orleans
      Parish with 124 single-family cottages that will be a combination
      of rentals and owner-occupied units. Construction started in
      August 2009 and was completed in March 2011. The other group
      sites and scattered units in New Orleans being developed with five
      different partners were not completed as of March 2011. Three of
      the partners had not yet started construction but are completing site
      preparation and obtaining authorizations. These five partnerships
      are expected to complete a total of 127 units in 2011.



Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 23
            State officials said that, in addition to the delays caused by the
            initial agreements with FEMA and the change of state agencies in
            charge of the project, other delays were caused by the
            environmental clearance process, problems in gaining community
            acceptance, and the need to find qualified tenants and purchasers.
            As a consequence, by the time many units are ready for occupancy,
            most of the target population will have found alternative housing
            solutions.

            The major cause of cost increases was the cost of land, which
            turned out to cost twice as much as planned because donated
            property was not available, and planned use of some state property
            was not legally feasible. Nevertheless, state officials plan to
            deliver 480 Louisiana Pilot Program housing units by the end of
            this year, 5 more than proposed in their grant application. If they
            are successful in doing so, the grant funds cost will be
            approximately $155,000 per unit.

            Louisiana had proposed to build all steel-framed units for higher
            wind resistance, but the factory-built modular units had to be
            constructed with wood framing because the factory could not
            handle steel framing. There were some construction problems,
            including improper dishwasher installations and other quality
            issues. However, the only major problem was in Lake Charles,
            where several units have had problems with deteriorating flooring
            caused by incompatible permeability of flooring and subflooring
            materials.

            State officials said that they had a good relationship with and
            cooperation from FEMA officials both at the Pilot Program
            headquarters office and at the regional level. They also had the
            support of a FEMA program specialist who has been in Louisiana
            since late 2007. This program specialist was very knowledgeable
            concerning both the Louisiana project and the Pilot Program.

The Texas Heston Group Project
     The Texas Pilot Program project has been terminated, after more than
     2 years of effort and the expenditure of over $5.5 million, with the
     production of only 6 housing units. Texas state officials said the principal
     problem was the housing developer/contractor’s failure to perform. In
     addition, the project was significantly impeded by a slow environmental
     clearance process and community reluctance to accept the housing units.




      Future Directions of FEMA’s Temporary Housing Assistance Program

                                  Page 24
      Project Proposal and Award

      Texas’ Heston Group USA proposal offered to construct 250 units
      of prefabricated panelized housing units for $19,378,500. The
      units were proposed by a U.S.-based affiliate of Heston
      International and were to be similar to units that were reported to
      have been used successfully by U.S. forces overseas. The units
      were constructed in Italy and shipped as flat packs that supposedly
      could be assembled in 8 hours by four workers and be ready for
      occupancy within a week of delivery.

      In the awards announcement on December 22, 2006, the Heston
      Group project was funded for up to $16,471,725, or 85% of the
      requested $19,378,500. The Texas Department of Housing and
      Community Affairs (TDHCA) was to administer the program.

      The grant award was not made until September 17, 2007, and had a
      period of performance from January 7, 2008, through December
      31, 2011. The award was delayed by negotiations concerning
      project details and delays by TDHCA in providing FEMA with
      detailed technical information concerning the project. The
      TDHCA plan by this point was to provide 40 to 50 homes at
      individual sites in east Texas areas and 20 homes at a group site in
      the Houston/Harris County area where homes had been destroyed
      by Hurricane Rita.

      Project Progress, Problems Encountered, and Results

      On April 1, 2008, a contract was signed with Heston Group USA
      to serve as the project developer for all of the units. Major
      problems were encountered from the beginning of the process.
      TDHCA officials had been under the impression that sufficient
      units were already present in the United States to start the project,
      but this did not prove to be the case, and the initial group of units
      took 90 days to deliver, significantly slowing the production
      schedule. In addition, the FEMA contractor that was handling the
      environmental clearance process did not perform in a timely
      manner. The environmental clearance process for the first 10 sites
      missed several estimated completion dates, took 9 months to
      complete, and at times brought the process to a standstill.
      Repeated TDHCA requests for information from the
      environmental contractor were not answered for weeks on end.
      TDHCA officials said that they believed the contractor had other
      work going on and that the TDHCA project was pushed to the
      bottom of the contractor’s priorities. When TDHCA requested


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 25
      help from FEMA in improving the performance of this contractor,
      it resulted in FEMA granting an extension to TDHCA for the
      process.

      More delays were experienced with the turnkey construction
      contractor. Heston Group USA would not provide a firm timeline
      for how long it would take to have a ready-for-occupancy unit in
      place once the environmental clearance process and other permits
      were completed. The contractor could not deliver the product
      within an agreed-upon timeframe. The completion date for the first
      unit was pushed back time and again without significant
      explanation. The times from start to ready-for-occupancy for the six
      units ranged between 40 and 137 days.

      In addition, four of the six units had construction problems,
      including subfloor water intrusion, improperly graded sewer lines,
      foundation and electrical problems, mold problems, and a faulty air
      conditioner. Some of these problems were caused by inexperience
      and poor training on the part of the contractor’s crews. TDHCA
      officials said the contractor experienced such high staff turnover
      that different crews completed each of the six units.

      TDHCA officials said that because of the delays, the demand for
      the units diminished as hurricane victims found other housing. In
      addition, community resistance grew as time passed. Some said
      the units were too industrial in appearance, looking like storage
      units. Cities wanted homes larger than 640 square feet. Harris
      County and Houston eventually dropped having either a group site
      or scattered units of the proposed housing.

      TDCHA encountered other significant problems in contractor
      performance: Required reporting was not provided, and requests
      for cost justification and production scheduling went unanswered
      for 13 months. Quarterly reports were consistently submitted late,
      and travel costs were not appropriately documented and appeared
      unreasonable. Numerous requests for documentation, such as for
      budget items, went unanswered. Requests from FEMA for
      foundation information took three months to receive a response.

      TDHCA sent Heston Group USA a default letter on May 12, 2009,
      with further clarification on June 12, 2009. The May 12th default
      letter cited numerous performance problems, including high staff
      turnover, poor fiscal controls, failure to submit required progress
      reports, and slowness in completing housing units. The default
      letter requested specific corrective plans and actions from the


Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 26
      contractor. TDHCA officials even provided Heston Group USA
      with guidance to respond to the default notice, as TDHCA was
      seeking a realistic reset for the contract. Heston Group USA
      provided a response that TDHCA officials did not consider
      adequate. Therefore, the contract was terminated on July 31, 2009.
      In March 2011, Heston Group USA filed suit against the state of
      Texas.




                   Completed Heston Group USA housing unit

      From the award of the contract through the termination date,
      Heston Group USA received $5,547,034.32. A subsequent
      TDHCA internal audit of the contract concluded that Heston
      Group USA was reimbursed for questionable costs but could not
      determine the exact amount because of inadequate access to
      company documents. In addition to the 6 completed units,
      TDHCA was left with an estimated 42 unassembled units in a
      Houston warehouse that the contractor had leased. In the
      warehouse were many unmarked and unorganized panels along
      with some damaged ones, and TDHCA officials are uncertain as to
      how many homes could actually be constructed using the
      materials. Ownership of the six completed units has been
      transferred free of charge to occupants of the units. TDHCA
      officials are attempting to transfer ownership of the unassembled
      units to a nonprofit organization that could use them to provide
      low-income housing.

      As of May 19, 2011, TDHCA officials were still awaiting guidance
      from FEMA on what steps they need to take to close out the grant.
      FEMA officials said that the final disposition decisions for the
      remaining portion of the grant have not yet been determined.



Future Directions of FEMA’s Temporary Housing Assistance Program

                            Page 27
             Although the Texas Pilot Program was clearly unsuccessful,
             TDHCA officials believed that they had taken responsible actions
             to manage the project. However, they were not able to devote staff
             attention to the Pilot Program for about 6 weeks after Hurricane
             Gustav struck Texas, requiring all of their time and focus.
             Hurricanes Ike and Dolly and a significant tropical storm also
             reduced TDHCA’s ability to focus resources on the Pilot Program
             during its operation.

             In addition to the extensive performance problems experienced
             with FEMA’s environmental clearances contractor, TDHCA
             officials said that FEMA’s staffing and guidance was inconsistent
             and did not provide as much assistance as they would have liked.

The Disaster Housing Pilot Project
     The Disaster Housing Pilot Project is to evaluate innovative alternative
     housing options by using them as student housing at a FEMA training
     facility. It is part of the JHSG effort to identify and evaluate alternative
     means of housing disaster survivors as directed by the Post-Katrina Act.
     Although the results of the evaluations are not yet complete, the project is
     providing a cost-effective means of identifying and testing alternative
     housing units.

     In June 2008, FEMA invited manufacturers to bid on contracts for
     supplying alternative housing units. Thirty responses were received and
     evaluated. The potential suppliers’ units were assessed by using a
     Housing Assessment Tool, a systematic method for evaluating alternative
     housing. Potential contractors were required to provide specifications and
     pictures of their proposed units and answer 255 questions concerning the
     units and the offering company. Seven awards for individual housing
     units were made. A second solicitation with slightly different
     specifications was announced on August 2009, and three awards were
     subsequently made. Two of the units being evaluated, the Mississippi
     Cottage and the Heston Group USA unit, are housing types that were also
     part of the Pilot Program. The selected alternative housing units present a
     variety of approaches to disaster housing.




       Future Directions of FEMA’s Temporary Housing Assistance Program

                                   Page 28
                 Housing units being tested at Emmittsburg, Maryland

The costs of the units, which differ significantly in size, ranged from
approximately $19,000 to $70,000, including installation at the seven
FEMA-prepared sites. The unit costs were higher because the units were
equipped with fire-suppression systems owing to their use as student
temporary housing. This would not be the case where local fire codes do
not specify that homes must have sprinkler systems. However, all of the
units cost more than comparable travel trailers, park models, and
manufactured housing units that FEMA traditionally has used after past
disasters.

The units were installed on the grounds of FEMA’s National Emergency
Training Center, where they served as student housing while they were
being evaluated. This allowed students to test the durability of units and
provide occupant satisfaction surveys. The seven original units were
tested for a year, and three of the units were then replaced by the three
units from the second solicitation.

An initial evaluation of the units’ suitability, durability, materials’ quality,
and occupant satisfaction was completed and submitted to FEMA
management by May 2011. Further evaluations, including evaluations of
the newer units, will be conducted in coming months. FEMA staff will
produce reports comparing traditional FEMA housing with the alternative
housing units, addressing such issues as costs, livability, comfort, safety,
and power usage. Continuing feedback concerning the results of the


 Future Directions of FEMA’s Temporary Housing Assistance Program

                              Page 29
     evaluations is being provided to the manufacturers, and FEMA officials
     expect this dialogue to result in further improvements.

     Thus far, the total cost of the Disaster Housing Pilot Project has been $1.4
     million. However, it appears that the program will be put on hold when
     the current round of tests and evaluations is completed because further
     funding for the program will not be available.

Conclusion
     The root causes of the problems that the Pilot Program grants encountered
     and the limitations on the utility of the units developed for future FEMA
     operations are not in how the program was implemented or in the
     management by state or FEMA officials, but rather in the program design
     and in decisions made when the program was initiated in 2006. The very
     concept of the program as legislated preordained it to be difficult to
     implement. The program had two primary goals and objectives: to
     develop “alternative sources of emergency housing” and to serve as an
     “intermediate term housing solution for the Gulf Coast.” Developing truly
     innovative alternative types of housing requires an innovative and even
     experimental process, which takes time and planning and involves some
     risk of failure. The hurricane victims, however, needed interim housing as
     soon as possible, and they needed it in large numbers. It would be very
     difficult to provide large numbers of truly innovative housing units in such
     a short time. Also, building innovative housing in the numbers needed
     would result in risking large sums of money if the experimental aspects of
     the designs turned out to be less than perfect. In addition, state officials
     said that gulf coast residents preferred traditional gulf coast architecture,
     making the area less than ideal for testing and finding community
     acceptance for innovative alternative designs.

     Moreover, the units funded and developed under such a mandate were not
     likely to match FEMA’s needs for rapid, cost-effective units to house
     survivors for up to 18 months following a disaster. Interim housing was
     never a very clear concept, and the designs and units being developed
     changed over the program’s life to become larger and more substantial
     types of housing units that can be described as, and will mostly serve as,
     permanent housing. Permanent housing is not a part of FEMA’s mandate,
     and funding the much higher costs of permanent housing would diminish
     FEMA’s effectiveness in meeting its overall responsibilities, especially in
     these times of tightening budgets.

     FEMA officials compounded the difficulties inherent in the Pilot Program
     concept by not allowing sufficient time for the concepts of the grant
     proposals to be fully developed and vetted. The gulf coast states were


      Future Directions of FEMA’s Temporary Housing Assistance Program

                                  Page 30
given only 35 days from the issuance of the program grant application
guidelines to the grant deadlines. State officials protested that this did not
allow them time to develop proposals, but to no avail. Extra time for
project development and community review was not allowed. As a
consequence, many of the proposals that were submitted, and most of
those that were funded, were simply proprietary designs that had already
been developed by commercial firms. In several instances, this fact would
later make awarding contracts and negotiating with contractors a problem
because the contractors actually owned the designs that the Pilot Program
panel had selected for funding.

One of the five factors on which the FEMA panel judged the proposals
was “the extent to which local officials and community organizations
support the pilot program in the community in which it will occur.” This
is an excellent criterion that should identify the community acceptance
problems that later proved such an obstacle to the Pilot Program units.
However, because the states had only 35 days in which to secure and
measure community support for housing programs that would be
implemented concurrently in many communities, such support was
virtually impossible to achieve before the projects had to be submitted.
The one exception that had extensive advance community acceptance was
the Alabama City of Bayou La Batre project, which was designed to be
implemented in only one community, and even it encountered some
community acceptance problems. Unfortunately, the programs that were
the most innovative sources of alternative housing and those that created
clusters of housing, two key goals of the Post Katrina Act housing
directive, encountered the most problems in gaining community
acceptance, and very few of them were completed.

The Pilot Program has not been a failure in that it has provided adequate
housing to many families who needed homes. However, more families
could have been housed faster and at a lower cost if the program had been
conducted as a housing program by agencies with a mandate for, and
experience in, creating permanent housing. The development of alternative
housing suitable for FEMA’s immediate post-disaster needs could then have
been left to single-focused efforts such as the Disaster Housing Pilot
Project.

Nevertheless, the Pilot Program provided some valuable lessons for
determining the future of FEMA post-disaster housing. The Alabama
project demonstrated the value of gaining community acceptance well in
advance of project agreement and showed that modular housing units
capable of providing permanent housing can be provided in a fairly brief
timeframe. The larger Mississippi project showed that quick-response
housing sturdy enough to withstand hurricane-force winds and flexible


 Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 31
enough to be readily converted to permanent housing can be developed
and installed at a fairly reasonable cost. The Louisiana project showed
that interim housing can be developed that presents a good appearance in
individual or group sites. The Texas project emphasized the importance of
having adequate time to prepare for a housing program and shows the
logic of doing so well in advance of a disaster.

The Disaster Housing Pilot Project as implemented by the JHSG is far
better designed and situated to find innovative solutions to disaster
housing at reasonable cost. However, unlike the Pilot Program, its units
will still not have been tested in the real world, a setting that provided
many unpleasant surprises to the more innovative Pilot Program concepts.

Both the Pilot Program and Disaster Housing Pilot Project have
demonstrated a variety of alternative housing concepts that could provide
better and safer housing for disaster victims. However, neither has found
solutions that are more cost-effective than traditional FEMA programs in
providing short-term post-disaster housing. The higher costs of many of
these alternative options could be somewhat offset by the fact that they are
much more capable of providing long-term or permanent housing than are
traditional options. However, providing such long-term housing is not a
FEMA mandate.

It remains to be seen whether the Pilot Program and Disaster Housing
Pilot Project will result in significant improvements to FEMA’s future
temporary housing assistance program. The HUD assessment of the
quality and suitability of the Pilot Program units is not due to be available
for FEMA review until the fall of 2011. A draft FEMA assessment of the
first group of Disaster Housing Pilot Project units is undergoing internal
review, and the final group of units should be assessed in 2012. Whatever
changes FEMA officials choose to make to the temporary housing
assistance program will partly depend upon these assessments.

In any case, it will not be easy to decide how to change the temporary
housing assistance program. Although detailed cost data are not yet
available from FEMA, the units we reviewed are significantly more
expensive than FEMA’s traditional temporary units and will sharply
increase the cost of post-disaster housing programs. In addition, most of
the units tested are too large to replace travel trailers and park models as a
compact post-disaster solution for many urban homeowners’ sites.
Community non-acceptance of alternative housing units, especially if
placed in group sites, is still a major problem in the cases we reviewed.




 Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 32
Recommendations
     We recommend that the Associate Administrator, Response and Recovery:

     Recommendation #1: Avoid program proposals that try to combine
     innovation with mass production in short timeframes, particularly in the
     housing area.

     Recommendation #2: Allow competitors in any housing grant program
     competition sufficient time to develop fully thought-out and detailed
     proposals that do not rely exclusively on the proprietary designs of
     commercial firms.

     Recommendation #3: Ensure adequate time and process to test
     community acceptance before undertaking housing projects.

     Recommendation #4: Develop complete cost for all components of
     disaster housing in order to be able to compare alternative options.

     Recommendation #5: Mandate that any decision concerning the
     implementation of alternative types of housing be based on an
     examination of the increased costs of such changes and the effects of such
     cost increases on FEMA’s effectiveness.

     Recommendation #6: Obtain clarification as to whether providing interim
     housing is a legitimate part of FEMA’s mandate or is more appropriately
     left to agencies responsible for providing permanent housing.


Management Comments and OIG Analysis
     FEMA management concurred with most of this report’s findings and
     conclusions, stated that the report’s findings would be used to strengthen
     the effectiveness and efficiency of future programs, and committed to
     addressing the report’s recommendations. In response to
     recommendations 1, 2, 3, and 4, FEMA officials fully concurred with the
     recommendations, further described some of the difficulties that led to the
     respective findings, and explained current and planned corrective actions.
     We will determine the status of these recommendations once we receive
     the detailed corrective action plan in FEMA’s 90-day letter.

     FEMA officials partially concur with recommendation 5. They agree that
     FEMA should examine the increased costs of alternative housing and the
     effects that such cost increases might have on FEMA’s effectiveness.
     However, they did not concur with the recommendation to issue a mandate


      Future Directions of FEMA’s Temporary Housing Assistance Program

                                  Page 33
for cost comparisons. They said that life-cycle costs are currently
considered, that flexibility is required in meeting housing needs, and that
such a mandate could slow the provision of housing to disaster survivors.
We do not agree that the recommended mandate would reduce FEMA’s
effectiveness in providing disaster housing, but simply would require that
decisions on implementing alternative housing choices be based on an
examination of costs versus effectiveness. We believe such considerations
of cost versus effectiveness should be part of the decision-making process
for any major government expenditure and are particularly needed in
FEMA disaster housing programs where actual costs have not been clear
and where pressure for expanded offerings are common. We will
determine the status of these recommendations once we receive the
detailed corrective action plan in FEMA’s 90-day letter.

FEMA officials did not concur with recommendation 6, that FEMA obtain
clarification as to whether providing interim housing is a legitimate part of
FEMA’s mandate or is more appropriately left to those agencies that are
responsible for providing permanent housing. FEMA officials said that
current law provides for such assistance for up to 18 months after a
disaster, unless extended by presidential determination, and that FEMA
continues to partner with HUD when the need for permanent housing is
realized as the result of a disaster. While we recognize the above, FEMA
has provided interim housing in excess of the 18-month period, and we
believe FEMA may well experience pressure to provide such housing in
the future. Although we remain concerned about the costs of providing
housing for more than 18 months, we accept FEMA’s argument that
recommending further clarification of the housing mandate is not justified.
We will close the recommendation once we receive FEMA’s 90-day letter.




 Future Directions of FEMA’s Temporary Housing Assistance Program

                             Page 34
Appendix A
Purpose, Scope, and Methodology

                    The purpose of this review was to determine whether the
                    Alternative Housing Pilot Program has been cost-effective in
                    providing housing for survivors of hurricanes Katrina and Rita in
                    the gulf coast region and in demonstrating alternative sources of
                    emergency housing that could provide better, safer, and more cost-
                    effective solutions for direct housing; whether the Disaster
                    Housing Pilot Project has been cost-effective in demonstrating
                    alternative sources of emergency housing; and the likely impact of
                    these programs on future directions of FEMA’s temporary housing
                    assistance program.

                    We examined the number and types of housing units that have
                    been developed under each of the Pilot Program grants and
                    compared them to each grant’s proposal for funding. We reviewed
                    the construction efficiency, effectiveness, quality problems, and
                    development time required for each of the housing development
                    programs, and the costs of each program. We determined whether
                    each program was serving the target community intended by the
                    program’s design. For both the Pilot Program and the Disaster
                    Housing Pilot Project, we evaluated whether each was building and
                    evaluating the types of innovative alternative housing that had
                    been envisioned in creating the programs and what possible effects
                    the lessons learned from these efforts could have on the future
                    direction of the temporary housing assistance program.

                    We interviewed officials from FEMA headquarters, responsible
                    state and city housing authorities, and housing development and
                    construction firms. We reviewed relevant FEMA and state
                    documents, grant and construction documents, OIG and
                    Government Accountability Office (GAO) reports, and federal
                    laws, regulations, guidance, and policy related to temporary
                    housing assistance and the housing programs under review.

                    We conducted fieldwork in Washington, D.C.; Bayou La Batre,
                    Alabama; Biloxi, Gulfport, Bay Saint Louis, Waveland, Ocean
                    Springs, and Pass Christian, Mississippi; New Orleans and Lake
                    Charles, Louisiana; Austin and Port Arthur, Texas; and
                    Emmittsburg, Maryland.

                    Our analysis is based on direct observation, review of applicable
                    documentation, and interviews. We conducted this performance
                    audit between January and June 2011, pursuant to the Inspector
                    General Act of 1978, as amended, and according to generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate


              Future Directions of FEMA’s Temporary Housing Assistance Program

                                          Page 35
Appendix A
Purpose, Scope, and Methodology

                    evidence to provide a reasonable basis for our findings and
                    conclusions based upon our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based upon our audit objectives.




              Future Directions of FEMA’s Temporary Housing Assistance Program

                                          Page 36
Appendix B
Management Comments to the Draft Report


                                                                                    U.s. Lk'p. rlm t llt or lIoml'hllld ~ lIrit )'
                                                                                    ~OOl"w("o:LSW
                                                                                    WIl,funston, DC 2OJ72




                                             OCT      3 2011

        MEMORAN DUM FOR:                       Matt Jadacki
                                               Assistant Inspcctor General
                                               Office of the InspeclOr General

        FROM:
                                                1'....6-"t- c,
                                               David 1. Kaufman
                                                                 -a"        - ;> '-
                                               Director
                                               Officc of Policy and Program Analysis

         UBJECT:                               FEMA Response to O IG Draft Report. Fllflire
                                               Direcliolfs oj Ft.~MA "s Tempor(ll)" Iloflsillg Assistance
                                               Program



        TIlank you for the opportunity to commcnt on the draft report. Thc findings in the report wi ll be
        used to strengthen thc cffcctivcness and efficiency of how we execute and measure our
        programs. Wc rc(.'Ognize the necd to continue to improvc the process, includi ng addressing the
        rt.-commendations raised in this report. Our responses to the r{'"Commendations arc as fo llows:

        Reco mmendation #1: Avoid program proposals that try to combine innovation with mass
        production in short timeframes. particularly in thc housing area.

        FE~lA   Res ponse: FEMA concurs with th is recommendation .

        FEMA r{''Cogni/cs programs that incorporatc multiple goals in short limeframcs involve risk.
        Ilowc\cr, FE~A attcmpted to balance both intended goal s o f developing innovati ve soluti ons
        and also expediting housmg assistance to disaster survivors when Implementing the Allcmauve
        Housing Pilot Program (AHPP). FEMA selected a short application limefrarne to expedite the
        delivery of funds and to allow the states to proceed as quick ly as possible III the areas hardest hit
        by Hurricane Katrina and other humcancs of the 2005 season.

        FE~A will consider longer timeframcs for applicants to prepare and subm it applications if lhe
        agency conducts fu ture competitive grant processes fo r the purpose of identifyi ng altemativc.
        new, or mnovative fo nns of disaster housing. At present , FEMA's authority to issue such grants
        is the result of special circumstances created by P.L 109-234. Additionally, all funds for the
        grants that resulting from P.L. 109-234 have been obligated to the grantees or for evaluation and



                                                                                    "'''' w.rtma.ao v




                 Future Directions of FEMA’s Temporary Housing Assistance Program


                                                        Page 37

Appendix B
Management Comments to the Draft Report




        grant oversight. If FEMA is providt:d the specifi c authority to conduct a similar grant program in
        the future. thc agency would consider the scope. and complexity of the propost.-d grant(s) to
        ensure that appli cants have enough time to ad{."quatcly prepare and submit applications thatmccl
        the grant objectivcs and pcrfonnance r{."quiremcllts.

        FEMA believes this sati sfies the intent of the recommendation and requests that th is
        recommendation be resolved and closed.

        Recommendation #2: Allow competitors in any housing program competition sufficient time to
        develop full y thought·OUI and detai led proposal s that do not rel y exclusivel y on proprietary
        designs of commercial fimls.

        f EMA Res ponse: FEMA concurs with thi s recommendati on.

        FEMA recognizes the difficulties that competitors experience in devel oping cost·effective. non-
        proprietary solutions that arc al so available in unknown quantities and on short notice. In
        recognition o f those diffi cult ies. FEMA conducts vendor and interagency outreach. perfonns
        market research on disaster housing options. posts procurement notices and provides techni cal
        assistance. While recogni zing this difficulty. FEMA must continuall y balan ce the expediency
        needed to meet the needs of di saster survivors with the need to identi fy non-proprietary
        solutions.

        FEMA believcs thi s satisfies the in tent of the recommendation and requests that thi s
        recommendation be resolved and closed .

        Reco mmendation #3 : En sure adequate time to process and test community acceptance before
        undertaking housing projt.'Cts.

        FEMA Respon se: FEMA concurs with this recommendati on.

        Although State applicants h'ld a short timcframe fo r complet ing their application to AHPP.
        demonstration of commun ity aceeptancc was onc o rthe factors the Scl eetion I' ancl considered in
        thc appl ication review process. Applicants were askt.-d 10 incl ude. in their application package,
        Ictters of support for their proposed projects from local communiti es. Howevcr, the AHPP
        demonstrated that not all community acceptance factors can be predicted in advance. Planned
        locations may be deemed environmentally infeasIble or support fro m origmally targeted
        communities may erode as tlmc passes from the application to ImplementatIon phase (and as
        lime elapses from the onset of the original disaster). If FE\I1A is provided the specific authonty
        to conduct a simi lar grant program in the future. the agency wtll take th is recommendation into
        aCCQum and provide adequate tIme fo r the State to obtain the level of community acceptance
        needt.'<i to ensurc success ofthc program .

        Through the Sational Disaster Housing Task Force (NDHTF), FEMA encourages States to
        establish a State-led Disaster Housmg Task Force (SLDHTF). A SLDHTF allows the State to

                                                                                                           2




                Future Directions of FEMA’s Temporary Housing Assistance Program


                                                     Page 38

Appendix B
Management Comments to the Draft Report




        plan for thc potential impacts of sign ificant housing losses and seeks to gain community
        acceptancc of potcntial housing solutions before. during and after a disaster. FEMA's NDHT F
        provides guidance to States on efTective establishment of these task forces while the State leads
        the task force. guides the dcvelopmcnt of direct housing plans. and coordinates housing
        requirements. In thc case o r catastrophic disasters. FEMA may also deliver community rccovery
        planning assistance. including housing assistance. to impacted communities through Emergency
        Support Function (ESF) #14 under the National Response Framework (NRF).

        In response to the spring 2011 tornado which struck Jopl in. Mi ssouri. the local schoo l district
        established (and achieved) the goal of opening schools on time thi s year. The SLDHTF made it
        a priority to place fami lies with school-aged children in mobile home parks first. and FEMA
        successfully housed all identified families before the start of the school year.

        Additionally. the statTof FEMA 's NDHTF provided tcchnical assistance to the State of New
        York as they created their own SLDHTF in response to flooding from Hurricane Ircne and
        Tropical Stonn Lee. Additionally. thc Stalc of Texas is currently sctting up a SLDHTF in
        response to thc wildfires that reccntly caused widespread housing damage.

        FEMA 's guidance to states on establishing SLDHTF's (including suggestcd membership. etc.)
        will help increase community buy-in and acceptance of housing solut ions. By helping stales set
        up such a task force, states can develop housing plans in advance of disasters as well as quickly
        convene all stakeholders during a disaster to decide on mutually agreeable housing sol utions.

        FEMA believcs this satisfies the intcnt of the r<..'Commendation and requests that this
        recommcndation be rcso lved and closed.

        Recommendati on #4: Dcvelop completc cost data based on past experiencc of all cost
        componcnts of disastcr housing in order to be able 10 com pare alterativc options.

         FEMA Res ponse: FEMA concurs with this recommendation.

        FEMA cont inues to work with federal. state and local partner agencies to find alternatives to
        lradi tional temporary housing thai will roouce costs and minimilc the length of timc a survivor is
        displaced. Additionally, FEMA continually reviews Its programs to identify opportunities for
        improved perfonnancc and effiCiency, and better ways to providc services to disaster survivors.
        As part of this effort. and in response to feedback from our stakeholders. FEMA recently
        rCYlcwed its direct housing program. including the provision of Temporary Housing Units
        (THUs).

        FEMA IS currently exploring the changes suggested by thiS rcview and hopes to impl enlclll new
        concepts to streamline the direct housing program through increased cfficicncies and cnhanced
        coordmation with our interagency partncrs and stakeholders. Ultimately. this should reduce


                                                                                                             3




                Future Directions of FEMA’s Temporary Housing Assistance Program


                                                     Page 39

Appendix B
Management Comments to the Draft Report




        costs to thc F(.'dcml govcrnment in providing direct housing assistance after Presidentially·
        declared disastcrs.

        Howevcr. simple cost analyses do not always capturc all factors because innovative solutions
        may not easily lend themselves to dircct comparisons. For example. the Mississippi Cottages.
        funded by thc AHPr. were installed as interim and (subsequently) as pennanen! units. thereby
        fulfilling two different although rclated roles. The results ora simple comparison of the costs of
        FEMA's traditional. temporary housing solutions with an alternati ve housing solution that
        encompasses both intcrim and pennanent housing may be misleading. An accurate cost analysis
        would need to factor in the totallife·cyelc cost ofthc unit (purchase price, storage. installation.
        maintenance. deactivation. elc.) as well as the more intangible benefits to community and
        individual recovery (such as a unit that functions as morc than just tcmporary or interim
        housing).

        FEMA believes this satis fies the intent of the recommendat ion and requests that this
        r(.'commcndation be resolved and elosed.

        Recomm end ation #5: MandalC that any decision concerning the implementation of alternative
        types of housing bc based on an examination of the increased cost of such changes and the
        effects of such cost increases on FEMA 's effcctiveness.

        FE MA Response: FEMA partially concurs with this recommendation.

        FEMA concurs that the agency should examine the inereas(..'(j cost of alternative types of disaster
        housing and the effects such cost increases may have on FEMA's eff(..'Ctiveness. FEMA regularly
        reviews thc costs associated with its dircct housi ng missions. Any decision to implement an
        alternative type of housing will be bas(..'(j on a cost analysis of all avai lable options.

        However. FEMA non·coneurs with the recommendat ion to issuc a mandate. Life·cycle costs of
        FEMA 's direct housing operations arc currcntly considered and efforts arc made to find less
        expensive but comparable alternatives. Additionally. FEMA must remain flexible in the event of
        II disaster and Illust always balance the need for cost effectiveness with the ability to providc
        ti mel y assistance to di saster survivors. The issuance of a mandate ma y havc thc unintended
        consequence of slowing FEMA's response to a large scale disaster. This will also slow the
        subsequent provision of housing for disaster survivors who need a. temporary housmg solution
        when a.vailable local resources do not meet the community's disaster housmg needs,

        FEMA believes this satisfies the mtent of the recommendation and requests that thiS
        recommendation be resolved and closed.

        Reco mm enda tio n #6: Obtain clarification as to whether providmg intcnm housmg is a
        legitimate part of FEMA's mandate or is more appropriately left to agencies responsible for
        proViding pennanent housing.


                                                                                                          •




                Future Directions of FEMA’s Temporary Housing Assistance Program


                                                     Page 40

Appendix B
Management Comments to the Draft Report




        FE 1A Response: FEMA non-concurs with this recommendation. Interim housing is generally
        defined as temporary housing. and the authorities and responsibi lities are prescribed by law (scc
        Stafford Act Section 408(c) (I) (6) (i)-(ij));

                (IJ) Direct assistance -
                        (i) In general - 71le Presidellt may provide tempormy housing IIlIits, acquired by
                       pllrchase or lease. directly to illdilliduols or households who. because ofa lack of
                       ami/able hOl/sing resources, would be wwble to make use o/the assistance
                       pro\'ided ulldcr subparagraph (A).
                       (ii) Period o/assislllllce - 771e Prcsidcllt may l10f providc direct assistance ,,"der
                       clause (i) with respect to a major disaster after the elld ofthe 18-mo",h period
                       beginning Oil the date o/rhe declaratioll o/the major disaster by the Presidcllt,
                       except that ti,e Presidcllt may extend that period if the President determines that
                       due 10 extraordinary circumstances all extension would be in 'he public interest.

        FEMA continues to partner with HUD when the need for pennanent housing is realized as a
        result of the disaster. As part of the NDRF. HUn is designated as the lead of the Housing RSF;
        FEMA and HUD work closely on developing housing solutions for disaster survivors. FEMA
        also coordinates with HUD on the transition of appli cants from FEMA-providcd temporary
        housing to pennanent housing solutions through the Disaster Assistance Hous ing Program
        (D HAP).

        FEMA believes thi s satisfies the intent of the recommendation and requests that this
        recommendation be resolved and closed.

        Again. we thank you for the opportunity to review and update our comments to your
        recommendations contained in your draft report. Should you have further questions regarding
        our response, please do not hesitate to call FEMA 's Chief Audit Liaison, Brad Shetka. at 202·
        646-1 308




                                                                                                             5




                Future Directions of FEMA’s Temporary Housing Assistance Program


                                                     Page 41

Appendix C
Major Contributors to this Report

                    Kaye McTighe, Director
                    Donald Norman, Auditor
                    Stuart Josephs, Auditor
                    Julie Wong, Auditor
                    Kenneth Valrance, Independent Referencer




              Future Directions of FEMA’s Temporary Housing Assistance Program

                                          Page 42
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Associate Administrator, Response and Recovery
                      Deputy Associate Administrator, Response and Recovery
                      Acting Assistant Administrator, Recovery
                      FEMA Audit Liaison (Project Number 10-014-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              Future Directions of FEMA’s Temporary Housing Assistance Program


                                          Page 43

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
